<html>
<title> - OVERSIGHT OF THE UNITED STATES REFUGEE ADMISSIONS PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






       OVERSIGHT OF THE UNITED STATES REFUGEE ADMISSIONS PROGRAM

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2017

                               __________

                           Serial No. 115-30

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Available via the World Wide Web: http://judiciary.house.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-994                    WASHINGTON : 2018                 



















                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

              JIM SENSENBRENNER, Jr., Wisconsin, Chairman
                 RAUL R. LABRADOR, Idaho, Vice-Chairman
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
JIM JORDAN, Ohio                     PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
MIKE JOHNSON, Louisiana              DAVID CICILLINE, Rhode Island
ANDY BIGGS, Arizona




































                            C O N T E N T S

                              ----------                              --
----------------------

                            OCTOBER 26, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................
The Honorable Raul Labrador, Idaho, Chairman, Subcommittee on 
  Immigration and Border Security, Committee on the Judiciary....     1
The Honorable Zoe Lofgren, California, Ranking Member, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................     6
The Honorable John Conyers, Michigan, Ranking Member, Committee 
  on the Judiciary...............................................    20

                               WITNESSES

Mr. Simon Henshaw, Acting Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State
    Oral Statement...............................................     8
The Honorable L. Francis Cissna, Director, United States 
  Citizenship and Immigration Services, U.S. Department of 
  Homeland Security
    Oral Statement...............................................    10
Mr. Scott Lloyd, Director, Office of Refugee Resettlement, 
  Administration for Children and Families, U.S. Department of 
  Health and Human Services
    Oral Statement...............................................    11
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office
    Oral Statement...............................................    13

                        OFFICIAL HEARING RECORD

Responses to Questions for the Record from Mr. Simon Henshaw, 
  Acting Assistant Secretary, Bureau of Population, Refugees, and 
  Migration, U.S. Department of State.
    http://docs.house.gov/meetings/JU/JU01/20171026/106540/HHRG-
        115-JU01-20171026-SD006.pdf
Responses to Questions for the Record from The Honorable L. 
  Francis Cissna, Director, United States Citizenship and 
  Immigration Services, U.S. Department of Homeland Security.
    http://docs.house.gov/meetings/JU/JU01/20171026/106540/HHRG-
        115-JU01-20171026-SD004.pdf
Responses to Questions for the Record from Mr. Scott Lloyd, 
  Director, Office of Refugee Resettlement, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.
    http://docs.house.gov/meetings/JU/JU01/20171026/106540/HHRG-
        115-JU01-20171026-SD005.pdf
              Additional Material Submitted for the Record

Hebrew Immigrant Aid Society (HIAS), International Refugee Assistance 
    Project (IRAP), Lutheran Immigration and Refugee Service (LIRS), 
    United States Conference of Catholic Bishops (UCCB), Church World 
    Service (CWS), The Cato Institute, The Episcopal Church, Letter for 
    Acting Secretary Eric Hargan and Director Scott Lloyd from over 100 
    organizations including the California Women's Law Center, 
    Catholics for Choice, the Central Conference of American Rabbis, 
    Human Rights Campaign, National Institute for Reproductive Health, 
    People for the American Way, Religious Coalition for Reproductive 
    Choice, Service Employees International Union (SEIU), United We 
    Dream and Women's Refugee Commission; 24 National and State-Based 
    Religious Groups Oppose ORR Obstructive Policy on Abortion. 
    Submitted by the Honorable Zoe Lofgren, California, Ranking Member, 
    Subcommittee on Immigration and Border Security, Committee on the 
    Judiciary. This material is available at the Committee and can be 
    accessed on the Committee Repository at:

        https://docs.house.gov/meetings/JU/JU01/20171026/106540/HHRG-
        115-JU01-20171026-SD002.pdf

Struggle to Resilience, Economic and Social Outcomes of Refugees in the 
    United States. Submitted by the Honorable John Conyers, Michigan, 
    Ranking Member, Committee on the Judiciary. This material is 
    available at the Committee and can be accessed on the Committee 
    Repository at:

        http://docs.house.gov/meetings/JU/JU01/20171026/106540/HHRG-
        115-JU01-20171026-SD003.pdf

 
       OVERSIGHT OF THE UNITED STATES REFUGEE ADMISSIONS PROGRAM

                              ----------                              


                       THURSDAY, OCTOBER 26, 2017

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                             Washington, DC

    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Raul R. Labrador 
[chairman of the subcommittee] presiding.
    Present: Representatives Labrador, Goodlatte, Smith, King, 
Buck, Johnson, Biggs, Lofgren, Conyers, Jayapal, and Jackson 
Lee.
    Staff Present: Andrea Loving, Majority Counsel; Jason Boyd, 
Minority Counsel; and Sabrina Hancock, Clerk.
    Mr. Labrador. The Subcommittee on Immigration and Border 
Security will come to order.
    Without objection, the chair is authorized to declare 
recesses of the committee at any time. We welcome everyone to 
today's hearing on Oversight of the United States Refugee 
Admission Program. And I now recognize myself for an opening 
statement.
    I have long been a supporter of the U.S. Refugee Admission 
Program and the important humanitarian mission that it serves. 
The United States and the peace and democracy under which we 
live should give hope to those around the world who face 
persecution by their government that their home countries can 
at some point also be free of such tyranny.
    As a former immigration lawyer, I have seen the USRAP at 
work firsthand. I have seen those who have been able to avail 
themselves of it come to this country and thrive. But just like 
with many government programs that start out with the best of 
intention and over the years prove to need updates, the time 
has come for reform of the program.
    A few problems that have come to light in recent years 
include fraud, unchecked executive authority, and threats to 
our national security. The House Judiciary Committee has 
highlighted some of these deficiencies over the last few years.
    For instance, we all know that, during testimony in 2015, 
the former FBI Director made troubling statements about the 
inability of law enforcement officials to properly vet 
applicants for refugee status. And former administration 
officials acknowledged in testimony to this committee that 
State and local consultation throughout the refugee 
resettlement process has not been as robust as needed in all 
cases.
    In fact, I have been approached by colleagues regarding 
this issue. They are concerned that the views of the States and 
localities they represent were ignored by an administration 
that simply wanted to resettle as many refugees as possible 
without regard to prudence.
    On the issue of fraud in the program, I am pleased that 
today we have the Government Accountability Office here to 
discuss two reports they issued this past spring, one of which 
highlights potential fraud in the process. These issues I have 
mentioned, as well as others, led me to introduce H.R. 2826, 
the Refugee Program Integrity Restoration Act of 2017.
    Among other things, the bill sets the annual refugee 
ceiling at 50,000, taking this responsibility from the 
President and placing it where it should be: with us in 
Congress. The bill also recognizes that States and localities 
should have a true say in whether or not their communities are 
able to resettle refugees.
    And H.R. 2826 contains provisions aimed at helping to 
defect fraud in the program, and thus, to reduce national 
security concerns. In that vein, I know that this past Tuesday 
marked the end of the 120-day travel suspension for refugees 
pursuant to Executive Order 13780. And I know that the relevant 
departments have instituted enhanced screening and vetting 
procedures for refugee applicants with regard to, one, the 
application process; two, the interview and adjudication 
process; and, three, the system checks conducted on applicants.
    The previous administration always stated, in response to 
any security-related questions about the refugee program, that 
certain refugees were the most vetted foreign nationals who 
enter the United States. But even if true, I never understood 
why the administration thought that simply because they were 
the most vetted that was the vetting was sufficient.
    It seems that within months of taking over, the new 
administration has identified several areas in which vetting 
could be improved. I appreciate the attention to security 
concerns and the steps they have taken.
    I look forward to the testimony of the witnesses here 
today. And I yield back the balance of my time.
    I now recognize our ranking member, Ms. Lofgren of 
California, for her opening statement.
    Ms. Lofgren. Like all Members of Congress, my highest 
priority is protecting our national security. And today's 
hearing presents an opportunity to examine a threat to that 
security: President Trump's anti-refugee agenda.
    Mr. Trump has characterized immigrants generally and 
refugees in particular as bad actors bent on harming Americans. 
The conservative CATO Institute found that the odds of an 
American being killed in a terrorist attack by a refugee are 1 
in 3.64 billion. By comparison, the odds of being struck by 
lightning are 1 in 700,000. The truth is this: It is not 
refugees that undermine our Nation's security; it is Mr. 
Trump's radical restrictions on their admission. Those include 
multiple refugee bans, a record low refugee ceiling imposed at 
a time of record high global displacement and a failure of 
American leadership in the world.
    Let me identify two of the many ways in which these 
policies undermine our safety. First, by substantially; 
lowering Muslim refugee admissions, these measures project 
anti-Muslim sentiment that further fuels ISIS recruitment. Ryan 
Crocker, a former Ambassador to Iraq and Afghanistan, who 
served under Republican and Democratic administrations, put it 
this way: Those who stand against refugee resettlement say they 
are protecting the Nation. They are not. They are putting the 
Nation at greater risk by reinforcing the Islamic state 
narrative. In other words, Donald Trump's actions galvanize 
individuals bent on committing terrorist attacks against 
Americans.
    Second, those policies damage partnerships with key allies 
in the fight against terrorism. Michael Chertoff, DHS Secretary 
under George W. Bush, specifically warned of the implications 
for our Iraqi allies. Some 60,000 of them await refugee 
resettlement in America. Many of their lives are at risk 
because of their assistance to the American military and State 
Department, yet the record low fiscal year 2018 refugee ceiling 
means that only a small portion of them will be resettled. By 
turning his back on these allies, President Trump discourages 
them, as well as other partners around the world, from helping 
the United States in future antiterror initiatives. This leaves 
all Americans more vulnerable to terrorist attacks.
    Such national security consequences are so significant that 
White House aide Stephen Miller appears to have deliberately 
marginalized key U.S. defense and national security agencies in 
order to push through the record low refugee cap. According to 
a report, Miller cut out the National Counterterrorism Center, 
FBI, Defense Department, and Joint Chiefs of Staff, our core 
national security stakeholders, from discussions about reducing 
refugee resettlement. The report even quotes a State Department 
official who stated that Mr. Miller, quote, ``suppressed 
evidence that was important to consider in determining a 
refugee number that would be beneficial to our national 
security interest.'' This gives the troubling appearance that 
the Trump administration prioritizes antirefugee agenda over 
the safety of the American people.
    Of course, I, along with all of my Democratic colleagues, 
support rigorous refugee vetting measures. As I noted, we have 
no higher duty than protecting the American people. But let us 
hope that this administration will not use claims of national 
security or reviews of refugee vetting procedures as cover for 
implementing a back-door Muslim ban. After all, numerous 
Federal courts challenged the administration's claim that its 
previous ban squarely advanced national security objectives.
    Refugees do more than just improve our national security. 
They are core to our American identity and values. That is why 
past Presidents of both parties embrace them. And contrary to 
this administration's suggestions, numerous studies prove they 
enhance our economy. Health and Human Services itself produced 
one of those studies, only for the administration to reportedly 
suppress it. It showed that, over a decade, refugees made a net 
positive economic contribution to the United States of some $63 
billion. Another study found that refugees are significantly 
more likely than native-born Americans to become entrepreneurs 
and thereby create jobs for American workers. In my own 
district, refugees have immeasurably enriched our community.
    I am deeply troubled by the disconnect between the 
administration's rhetoric and reality. I hope today's hearing 
will show greater regard for the truth. We owe it to the 
American people to illuminate how Mr. Trump's anti-refugee 
policies violate our values, damage our economy, and make all 
of us less safe.
    I would also like to add that, when refugees and asylees 
enter our country, they have constitutional rights that must be 
respected. I am sure we will explore that further in the course 
of this hearing.
    And I yield back the balance of my time.
    Mr. Labrador. Thank you, Ms. Lofgren.
    I would now like to recognize the full committee chairman, 
Mr. Bob Goodlatte of Virginia, for his opening statement.
    Chairman Goodlatte. Thank you, Mr. Chairman.
    And I very much appreciate your holding this hearing today 
on this very important issue and with this outstanding panel of 
witnesses.
    The United States has a generous refugee program, has 
provided millions of people fleeing persecution with safe 
haven. In fiscal year 2016, we resettled 84,994 refugees. And 
last fiscal year, we resettled 53,716 refugees. And while we 
should continue that great tradition, it has become clear that 
our refugee laws and policies have been abused and that they 
need reform.
    The Refugee Act of 1980 created our current refugee 
resettlement process in which the President sets the annual 
limit for the number of refugees the United States can resettle 
during the next fiscal year. And the act set forth who could be 
considered admissible as a refugee and how and when those 
refugees could adjust to lawful permanent resident status. In 
addition, the act put in place a process for the Federal 
Government to work through nongovernmental agencies to resettle 
refugees.
    Thirty-seven years later, Members of Congress and the 
American public are voicing a growing number of concerns about 
how many and the process through which refugees are admitted to 
the United States as well as what happens once they are 
admitted.
    But the Federal Government has done little to respect those 
concerns. Under the previous administration, when a State or 
locality expressed security concerns about refugee 
resettlement, the administration simply repeated the sound bite 
that refugees undergo the most rigorous background checks of 
any immigrants to the United States. That statement ignored the 
concerns of several security officials that, if there is no 
information regarding a potential refugee in the databases that 
are checked, then no derogatory information will show up during 
the check. And it ignored the fact that, in many states from 
which refugees are admitted, failed states, there is no 
reliable information about refugees.
    We know that over 300 individuals being actively 
investigated for terrorist-related activity by the FBI came 
from to the United States as refugees. And we know that at 
least 2 of the 10 successful terrorist attacks carried out on 
U.S. soil since September 11, 2001, were perpetrated by 
individuals who entered the United States as refugees.
    In addition to security concerns, if a State or locality 
expressed concerns about the cost of refugee resettlement or 
the lack of available employment opportunities, the prior 
administration did little in response. It was simply their view 
that, quote, ``The Federal Government has the right to resettle 
refugees all across America,'' end quote. And while that may be 
true, it is not necessarily the best practice. I know that many 
resettlement organizations do wonderful and necessary work, but 
essentially ignoring the pleas of communities across the U.S. 
and leaving refugee resettlement decisions to the 
administration simply feeds opposition to refugee admissions on 
the whole.
    I know that the Trump administration has already addressed 
some of the concerns I have laid out today. For instance, I was 
happy to see that Executive Order 13780, signed on March 6, 
2017, recognized the problem with lack of State and local 
consultation prior to resettlement and asked the Secretary of 
State to devise a plan to promote State and local involvement 
in resettlement decisions. And, of course, the same executive 
order required a review of refugee processing to determine what 
improvements could be made to the process and then to implement 
those improvements.
    So I look forward to hearing today how the Departments of 
Homeland Security, State, and Health and Human Services are 
working together to improve the entire U.S. Refugee Admissions 
Program, from referral to post resettlement, so that the 
program can remain a valuable and viable part of U.S. 
immigration policy.
    Thank you, Mr. Chairman. I yield back.
    Mr. Labrador. Thank you, Mr. Chairman.
    I would now like to recognize the full committee ranking 
member, Mr. Conyers of Michigan, for his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman.
    Top of the morning, witnesses and everyone else here. Over 
the course of today's hearing on the United States Refugee 
Admissions Program, there are several factors that I want our 
witnesses and our members to consider. To begin with, it is 
incontrovertible that the United States since its founding has 
been a Nation of immigrants. And in recognition of that fact 
and of the undeniable value that immigrants contribute to our 
collective well-being, it has provided safe harbor for the 
persecuted.
    True to these values, past Presidents, Republican and 
Democratic alike, have championed robust refugee resettlement. 
For example, the annual refugee admissions ceiling has averaged 
94,000 since the Refugee Act of 1980, making America the 
world's resettlement leader. And just 1 year ago, the cap was 
increased to 110,000 in response to the global humanitarian 
crisis fueled by wars and unstable political environments. 
Unfortunately, the current administration in swift fashion 
abandoned America's bipartisan leadership in this arena.
    Pursuant to executive orders, President Trump issued a 
series of refugee bans. He then set a fiscal year 2018 ceiling 
of 45,000, the lowest in modern history. In terms of per capita 
refugee resettlement, that ranks the United States behind eight 
other nations.
    Under any circumstances, these actions would fly in the 
face of our country's values. But coming at a time when 
worldwide refugee levels have soared to the highest in history, 
this cap to me is simply unconscionable. And worse yet, the 
administration's purported justification for its actions are 
baseless. The administration argues that the refugee program 
poses a security threat.
    Needless to say, Democrats stand committed to rigorous 
refugee vetting. But national security experts from both 
parties agree that it is the absence of robust resettlement 
that truly undermines America's safety. By slashing refugee 
admissions, President Trump damages, to me, key alliances in 
the ongoing fight against terrorism and strengthens ISIS 
recruitment.
    The administration also claims that refugees fail to 
assimilate and that they drain public resources. Again, 
however, the facts are otherwise. According to reports, an 
internal study by the Department of Health and Human Services, 
suppressed by the administration, shows that refugees 
contributed a net positive $63 billion to the United States 
over a 10-year period. In other words, it is not refugees but 
the President's restrictions of their admission that saps the 
Nation's coffers.
    In sum, President Trump's refugee policies don't just leave 
tens of thousands of refugees in limbo and danger. They don't 
just violate core American values. They weaken our national 
security, damage our economy, and undermine our Nation's core 
values.
    All of this begs the question of what really fuels such 
policies. Tragically, the answer to that question appears to 
be, to me, a combination of nativism, fake facts, and perhaps 
even a little bigotry, drawing from arguments made by anti-
immigrant organizations designated by the Southern Poverty Law 
Center as hate groups with documented links to white 
nationalists.
    The administration has even proposed a refugee assimilation 
test, which evokes such xenophobic measures as the eugenics-
movement-fueled 1924 Immigration Act, which restricted 
immigration from Southern Europe and banned it outright from 
Asia. Like the 1924 act, the present administration's refugee 
policies are equally inexcusable.
    In closing, I urge our witnesses today to examine these 
policies unflinchingly and to assess how gravely they endanger 
our values, our economy, and even our national security. I look 
forward to your testimony.
    And I thank the Chairman and yield back.
    Mr. Labrador. Without objection, other members' opening 
statements will be made part of the record.
    Ms. Lofgren. Mr. Chairman?
    Mr. Labrador. Yes.
    Ms. Lofgren. May I be granted unanimous consent to place 
into the record statements from the Hebrew Immigrant Aid 
Society, the International Refugee Assistance Project, the 
Lutheran Immigration and Refugee Service, U.S. Catholic 
Conference of Bishops, Church World Services, the CATO 
Institute, the Episcopal Church, a letter to Acting Secretary 
Eric Hargan and Director Lloyd from over 100 organizations, 
including the California Women's Law Center, Catholics For 
Choice, the American Rabbis' Human Rights Campaign, and many 
others.
    Mr. Labrador. Without objection, they will be made part of 
the record.
    This material is available at the Committee or on the 
Committee repository at: https://docs.house.gov/meetings/JU/
JU01/20171026/106540/HHRG-115-JU01-20171026-SD002.pdf
    Mr. Labrador. Today, we have a distinguished panel.
    The witnesses' written statements will be entered into the 
record in its entirety. I ask that you summarize your testimony 
in 5 minutes or less. To help you stay within that time, there 
is a timing light on your table. When the light switches from 
green to yellow, you will have 1 minute to conclude your 
testimony. When the light turns red, it signals that your 5 
minutes have expired. Before I introduce our witnesses, I would 
like you to stand to be sworn in.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth?
    Let the record reflect that the witnesses answered in the 
affirmative.
    Thank you, and please be seated.
    Mr. Simon Henshaw has served as the Acting Assistant 
Secretary of the Bureau of Population, Refugees, and Migration 
at the Department of State since July 15, 2017. Mr. Henshaw 
previously served as Director of Andean Affairs in the State 
Department's Bureau of Western Hemisphere Affairs, Deputy Chief 
of Mission at the U.S. Embassy in Honduras, and several other 
capacities at the State Department.
    Mr. Henshaw attended the National War College where he 
earned a master's of science in national security affairs and 
has a bachelor of arts in history from the University of 
Massachusetts at Amherst.
    The Honorable L. Francis Cissna is the Director of the U.S. 
Citizenship and Immigration Services. Previously, Mr. Cissna 
served as the Director for Immigration Policy within the DHS 
Office of Policy and as the Acting Director and Deputy Director 
of Immigration and Border Security Policy in the DHS Office of 
Policy. Before serving at DHS headquarters, he worked in the 
USCIS Office of the Chief Counsel as an associate counsel in 
the Adjudications Law Division.
    Mr. Cissna received his J.D. from Georgetown University Law 
Center. He received a master's degree in international affairs 
from Columbia University and a bachelor's degree in both 
physics and political science from the Massachusetts Institute 
of Technology. Physics and political science, that is an 
interesting combination.
    Mr. Scott Lloyd is the Director of the Office of Refugee 
Resettlement. Mr. Lloyd previously worked as an attorney in the 
public policy office at the Knights of Columbus. Before joining 
the Knights, he worked in private practice at the Department of 
Health and Human Services and on Capitol Hill.
    Mr. Lloyd received his undergraduate education at James 
Madison University and earned a J.D. at Catholic University of 
America, Columbus School of Law.
    Ms. Rebecca Gambler is a Director in the U.S. Government 
Accountability Office, Homeland Security and Justice Team, 
where she leads GAO's work on border security, immigration, and 
elections issues. Ms. Gambler joined GAO in 2002. Prior to 
joining GAO, Ms. Gambler worked at the National Endowment for 
Democracy's International Forum for Democratic Studies.
    Ms. Gambler has an MA in national security and strategic 
studies from the United States Naval War College and an MA in 
international relations from Syracuse University and an MA in 
political science from the University of Toronto.
    I now recognize Mr. Henshaw for his statement.

TESTIMONY OF SIMON HENSHAW, ACTING ASSISTANT SECRETARY, BUREAU 
  OF POPULATION, REFUGEES, AND MIGRATION, U.S. DEPARTMENT OF 
STATE; THE HONORABLE L. FRANCIS CISSNA, DIRECTOR, UNITED STATES 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
  HOMELAND SECURITY; SCOTT LLOYD, DIRECTOR, OFFICE OF REFUGEE 
RESETTLEMENT, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND 
REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND JUSTICE, U.S. 
              GOVERNMENT AND ACCOUNTABILITY OFFICE

                   TESTIMONY OF SIMON HENSHAW

    Mr. Henshaw. Thank you very much, Chairman Labrador, and 
distinguished Members of Congress. And thank you very much for 
holding this hearing on the U.S. Refugee Admissions Program, 
which I will here after refer to as USRAP.
    I appreciate the opportunity to address your subcommittee 
with my colleagues from the Departments of Homeland Security, 
Health and Human Services, and GAO. Together, the Department of 
State, DHS, and HHS, plan to bring up to 45,000 refugees to the 
United States through the USRAP in fiscal year 2018.
    The security and welfare of the American people is this 
administration's top priority. We have instituted additional 
procedures in the USRAP application, interview, and 
adjudication and systems checks processes to strengthen our 
vetting system. We will continue to find ways to make our 
screening procedures more effective in order to protect the 
American people.
    For those eligible for protection as refugees, the USRAP is 
committed to deterring and detecting fraud among those seeking 
to resettle in the United States. We will continue rigorous 
security measures to protect against threats to our national 
security.
    In fiscal year 2018, the United States expects to continue 
to permanently resettle more refugees than any other country, 
and we will continue to offer protection to the most vulnerable 
of those who have been persecuted because of race, religion, 
nationality, membership in a particular social group, or 
political opinion.
    Since 1975, the United States has welcomed more than 3.4 
million refugees, and the United States continues to operate 
the largest Refugee Resettlement Program in the world. Through 
the USRAP and our generous assistance program for refugees in 
countries of first asylum, the United States demonstrates its 
commitment to protecting the most vulnerable of the world's 
refugees while keeping America safe from harm.
    According to the United Nations High Commissioner for 
Refugees, UNHCR, there are 65.6 million forcibly displaced 
people in the world today, 22.5 million of whom are refugees. 
The United States and UNHCR focus on three durable solutions to 
address the world refugee situation: voluntary repatriation, 
local integration, and resettlement to a third county.
    The United States and UNHCR recognize that most refugees 
desire safe voluntary return to their homeland, and we share 
UNHCR's priority of helping facilitate the voluntary 
repatriation of refugees in safety and dignity. In 2016, some 
552,000 refugees voluntarily repatriated to their countries of 
origin.
    For those refugees who are unable to voluntarily return 
safely to their home countries, the United States supports 
efforts to help refugees become self-sufficient and locally 
integrate into their country of first asylum. The Department of 
State encourages host governments to protect refugees and to 
allow them to integrate into local communities. We promote 
local integration by funding programs to enhance refugee self-
reliance and support community-based social services. Our 
support has enabled numerous refugees from around the world to 
integrate into their host communities abroad, even while 
awaiting eventual voluntary repatriation.
    For refugees who are unable to return home safely or 
integrate locally, resettlement in third countries provides 
durable protection. USRAP's security vetting process is managed 
by DHS and includes the participation of the Departments of 
State and Defense, the FBI, and the intelligence community, 
including the National Counterterrorism Center.
    DHS retains the authority to refuse refugees for admission. 
In response to Executive Order 13780, protecting the Nation 
from foreign terrorist entry into the United States, refugee 
admissions were suspended in fiscal year 2017 for a 120-day 
period, with the exception of certain cases.
    During this period, the Departments of State and Homeland 
Security and the Office of the Director for National 
Intelligence, as well as additional intelligence and law 
enforcement agencies reviewed and enhanced the security 
screening regime for refugees. The program is currently in the 
midst of an additional review of nationals of countries--of 
certain countries with the potential for higher risk.
    The USRAP is premised on the idea that, upon resettlement 
in the United States, refugees should become economically self-
sufficient as quickly as possible. The Department of State 
works domestically with agencies participating in the Reception 
and Placement Program to ensure that refugees receive services 
during the first 90 days after arrival in accordance with 
established standards.
    During and after the initial resettlement period, the 
Department of Health and Human Services, Office of Refugee 
Resettlement, provides technical assistance and funding to 
States, the District of Columbia, and nonprofit organizations 
to help refugees become self-sufficient and integrated into 
U.S. society.
    Thank you very much. I look forward to responding to your 
questions.
    Mr. Henshaw's written statement is available at the 
Committee or on the Committee Repository at: http://
docs.house.gov/meetings/ju/ju01/20171026/106540/hhrg-115-ju01-
wstate-henshaws-20171026.pdf
    Mr. Labrador. Thank you very much.
    I now recognize Mr. Cissna for 5 minutes.

          TESTIMONY OF THE HONORABLE L. FRANCIS CISSNA

    Mr. Cissna. Thank you, Chairman Labrador, Chairman 
Goodlatte, Ranking Member Lofgren, Ranking Member Conyers, and 
good morning to the members of the committee.
    My name is Francis Cissna, and I am the Director of U.S. 
Citizenship and Immigration Services, or USCIS.
    I am glad to have this opportunity to discuss the role of 
USCIS in the Nation's refugee admissions processes. I look 
forward to meeting each of you individually to discuss our 
views on immigration and how we can work together to improve 
our Nation's immigration system.
    Since this is my first opportunity to address any part of 
Congress in my new capacity as Director, I wanted to take a 
moment to quickly let you know some of my philosophy regarding 
the work that we do at USCIS.
    Upon my arrival at USCIS, about 2 weeks ago, I made it 
clear to the leadership team that my vision of the agency's 
mission is one that focuses on three things: efficiency, 
fairness, and lawfulness.
    Efficiency: The sheer volume of the work that USCIS does 
makes it imperative that the efficiency be one of our key 
goals. Movement from antiquated paper-based processes to one 
that leverages the latest technology will allow us to process 
applications and petitions in an efficient and integrated way.
    Fairness: Transparency in our operations, from individual 
case inquiries to massive data requests, is essential to the 
question of fairness. USCIS, under my leadership, is committed 
to providing the most accurate and complete information to the 
public, whether they are applicants, petitioners, or the 
general public, as possible. Doing so, I believe, will 
demonstrate our promise to adjudicate benefit applications and 
petitions fairly.
    Finally, lawfulness: Everything that we do must be done in 
accordance with the law. Too often, noble intentions have 
resulted in creation of policies and programs that circumvent 
or even directly contradict our Nation's immigration laws. 
Under my leadership, I will ensure that everything we do, 
policy and process, is always in agreement with the law.
    You can be sure that these principles will be applied to 
every part of USCIS' operations, including the topic of today's 
hearing, refugee admissions.
    USCIS is prepared to work closely with the Department of 
State and other interagency partners to support a refugee 
admissions program of up to 45,000 arrivals in fiscal year 2018 
while at the same time assiduously maintaining and improving 
the integrity of the program and our national security.
    On March 6th of this year, President Trump issued Executive 
Order 13780, called ``Protecting the Nation from Foreign 
Terrorist Entry into the United States.'' In that document, the 
President stated this: It is the policy of the United States to 
protect its citizens from terrorist attacks, including those 
committed by foreign nationals.
    While the executive order has been the subject of 
litigation and portions of it were enjoined for a time, USCIS 
has worked aggressively to strengthen the integrity of the U.S. 
Refugee Admissions Program, consistent with its legal 
obligations. Pursuant to that executive order, USCIS and its 
partners engaged in a 120-day review process that ended just 2 
days ago. I would like to share at this time some of the 
results of that review.
    As a result of the review, the Federal Government is 
implementing enhancements that have raised the bar for vetting 
and screening procedures, including enhancing the collection of 
biometric information, better information sharing between State 
and DHS, and new training procedures to strengthen screeners' 
ability to detect fraud and deception.
    Recognizing that the suspension of the U.S. Refugee 
Admissions Program in Executive Order 13780 has served its 
purpose, the President issued a new executive order ending the 
suspension and directing State and DHS to resume refugee 
resettlement processing, consistent with the improved vetting 
measures.
    While DHS, State and the Directorate of National 
Intelligence have jointly determined that the screening and 
vetting enhancements to the Refugee Admissions Program are 
adequate to generally resume refugee admissions, they have also 
concluded that additional in depth review is needed with 
respect to refugees from 11 countries that were previously 
identified as posing a higher risk to the United States.
    Consequently, admissions for applicants from those 11 high-
risk countries will resume but on a case-by-case basis during a 
90-day review period. As DHS, State, and DNI complete 
individual country reviews, they may resume a standard 
admissions process for applicants from those countries. These 
new measures are part of the administration's initiative to 
raise national security standards across the board. These 
enhancements will continually be evaluated to determine 
efficacy for ensuring national security. The administration 
will continue to work closely with law enforcement and 
intelligence communities on these security enhancements, and of 
course, we will work with you to ensure that operational and 
legislative efforts are well coordinated.
    Finally, I wanted to just touch one subject, and that is 
the asylum backlog that USCIS is facing right now. We are 
looking at 300,000 cases. Thank you.
    Mr. Cissna's written statement is available at the 
Committee or on the Committee Repository at: http://
docs.house.gov/meetings/ju/ju01/20171026/106540/hhrg-115-ju01-
wstate-cissnaf-20171026.pdf.
    Mr. Labrador. We will let you touch on that during 
questioning and answer. Thank you very much.
    Now, I recognize Mr. Lloyd for 5 minutes.

                    TESTIMONY OF SCOTT LLOYD

    Mr. Lloyd. Chairman Labrador, Ranking Member Lofgren, 
Ranking Member Conyers, and members of the subcommittee. Thank 
you for inviting me to discuss the Department of Health and 
Human Services responsibilities to help refugees resettle in 
the United States.
    My name is Scott Lloyd, and I am the Director of the Office 
of Refugee Resettlement. I oversee ORR's programs which provide 
refugees, asylees, victims of trafficking, and other 
populations with support and services to assist them to become 
integrated members of American society. In my testimony today I 
will describe the role that HHS plays in refugee resettlement 
and upcoming initiatives that the office plans to pursue.
    In addition to refugees, asylees, Cuban and Haitian 
entrants, special immigrant visa holders and victims of human 
trafficking are eligible for ORR services. ORR's mission is to 
link these populations to resources to help them become 
successfully assimilated members of American society. In fiscal 
year 2016, the United States resettled refugees from 89 
countries. In total, over 212,000 individuals were eligible for 
resettlement services through ORR programs.
    ORR carries out its mission to serve refugees through 
grants and related services, administered by State governments 
and nonprofit organizations, including faith-based groups, and 
an extensive public-private partnership network. Through these 
grants, ORR provides time-limited cash and medical assistance 
to newly arrived refugees as well as case management services, 
English language classes, and employment services, all designed 
to facilitate refugees' successful transition and assimilation 
into life in the United States. To ensure a successful 
transition for refugees, ORR funds cash and medical assistance 
for individuals who are determined, not eligible for SSI, TANF, 
and Medicaid.
    Through programs administered by States and by voluntary 
organizations under the Wilson-Fish programs, ORR provides this 
assistance to eligible populations for up to 8 months after 
their arrival in the United States.
    A portion of new entrants participate in the voluntary 
agency matching grant program rather than the refugee cash 
assistance program. Through the matching grant program, ORR 
funds U.S. resettlement agencies to help refugees become 
employed and self-sufficient within their first 4 months in the 
U.S. by providing services, such as case management, job skill 
development, job placement and followup, and interim housing 
and cash assistance. Participating refugees may not access 
other public cash assistance if they choose to participate in 
the matching grant program.
    This employment-focused case management model has proven to 
be effective in helping refugees achieve economic self-
sufficiency. In fiscal year 2016, the matching grant program 
served almost 35,000 refugees, asylees, entrants, and special 
immigrant visa holders, and reported economic self-sufficiency 
rates of approximately 84 percent for refugees at 180 days 
after arrival.
    ORR also provides funds to State governments and private 
nonprofit agencies to support social services, including 
English language courses, employment services, and social 
adjustment services. ORR allocates these funds based on a 
formula tied to the prior year of arrival data that accounts 
for refugees' and other entrants' movements to other States 
after their initial resettlement. ORR provides targeted 
assistance grants to States with qualifying counties that have 
high numbers of refugee arrivals. Services provided by this 
program are generally designed to help refugees secure 
employment within 1 year or less of their arrival. ORR programs 
also support economic development activities. These programs 
focus on financial literacy, establishing credit and match 
savings in support of housing purchases, educational goals, and 
hundreds of business startups that in turn employ thousands.
    ORR is committed to achieving a culture of excellence 
throughout its programs. To do this, the program is redoubling 
its efforts to obtain dependable data on program outcomes and 
to incorporate evidence-based decision-making. Over the past 
year, ORR has engaged in an initiative to improve data and 
research on how refugees are integrating into the United 
States.
    ORR has awarded two research contracts. The first contract 
will oversee the annual survey of refugees for the next 2 
years. We have worked to improve the sampling design and 
methodology to ensure that ORR has nationally representative 
data on refugees' first 5 years in the United States. The 
second research contract will assess ways to improve the survey 
as an indicator of refugee successes and challenges. In 
addition, ORR is particularly interested in enhancing data 
collection from our State and local service providers to better 
assess refugees' success and assimilation in communities post 
arrival. ORR is working on a number of related data collection 
initiatives to strengthen program performance reporting and 
outcomes.
    I welcome this committee's interest in HHS' refugee 
resettlement programs. Thank you for the opportunity to discuss 
the work we perform, and I would be happy to answer any 
questions.
    Mr. Lloyd's written statement is available at the Committee 
or on the Committee Repository at: http://docs.house.gov/
meetings/ju/ju01/20171026/106540/hhrg-115-ju01-wstate-lloyds-
20171026.pdf.
    Mr. Labrador. Thank you, Mr. Lloyd.
    I now recognize Ms. Gambler for 5 minutes.

                  TESTIMONY OF REBECCA GAMBLER

    Ms. Gambler. Good morning, Chairman Labrador, Ranking 
Member Lofgren, Ranking Member Conyers, and members of the 
subcommittee. I appreciate the opportunity to testify at 
today's hearing to discuss GAO's work on the process by which 
refugees seek to be resettled in the United States. The United 
States admitted nearly 85,000 refugees in fiscal year 2016 and 
over 50,000 in fiscal year 2017.
    In recent years, questions have been raised regarding the 
adequacy of the process for screening refugees seeking 
resettlement and the extent to which the process may be 
vulnerable to fraud. In two GAO reports issued earlier this 
year, we examined U.S. Government efforts to oversee and 
implement the U.S. Refugee Admissions Program as well as 
efforts to identify and address potential fraud in the program. 
My oral remarks summarize GAO's key findings and 
recommendations in three areas: one, policies and procedures 
for case processing; two, policies and procedures for 
adjudicating refugee applications; and, three, efforts to 
assess and address fraud risks.
    First, State, through its nine support centers overseas, 
has policies and procedures for processing refugee referrals 
and applications to the United States. For example, State's 
procedures include requirements for these centers to conduct 
prescreening interviews of applicants to obtain information on 
their persecution stories, among other things.
    State also has various mechanisms to oversee the activities 
of these refugee support centers. However, State does not have 
outcome-based performance indicators to assess the centers' 
performance, such as ensuring the quality of the center's 
prescreening activities. We recommended that State develop such 
indicators, and State concurred.
    Second, within the Department of Homeland Security, USCIS 
has policies and procedures to adjudicate refugee applications. 
For those adjudications that we were able to observe during our 
audit work, we found that USCIS staff generally implemented 
these procedures. We also found that USCIS provided training to 
all officers who adjudicate refugee applications abroad. 
However, USCIS could improve its training. Specifically, we 
found that officers who adjudicated applications on a temporary 
basis did not receive the same amount or type of training as 
full-time refugee officers. We recommended that USCIS provide 
additional training for temporary officers, and USCIS has since 
done so. Further, with regard to quantity assurance, USCIS has 
not regularly assessed the quality of refugee adjudications to 
help ensure that files are complete and that decisions on 
applications are well documented and legally sufficient. Thus, 
we recommended that USCIS conduct regular quality assurance 
assessments of refugee adjudications.
    Finally, State and USCIS have procedures to mitigate fraud 
risks in the Refugee Admissions Program but could improve their 
efforts. While infrequent, instances of staff fraud have 
occurred, such as processing center staff soliciting bribes 
from applicants in exchange for promises of expedited 
processing. In response, these centers have designed control 
activities to address staff fraud. However, State has not 
required that all centers conduct staff fraud risk assessments.
    Further, regarding applicant fraud, in the past, State has 
suspended refugee resettlement programs because of fraud. State 
and USCIS have implemented mechanisms to help prevent applicant 
fraud. However, they have not jointly assessed applicant fraud 
risks program wide. Absent such joint assessments, State and 
USCIS do not have comprehensive information on risks that may 
affect the integrity of the process. We recommended that State 
regularly review processing center staff fraud risk assessments 
and use them to examine the suitability of existing fraud 
controls. We also recommended that State and USCIS conduct 
regular joint fraud risk assessments of the program. State and 
USCIS concurred with these recommendations.
    In closing, giving the potential consequences that the 
outcomes of decisions on refugee applications can have on the 
safety and security of both vulnerable refugee populations and 
the United States, it is important that the U.S. Government 
have an effective refugee process to allow for resettlement of 
approved applicants while preventing those with malicious 
intent from using the program to gain entry to the country.
    This completes my prepared statement, and I would be happy 
to answer any questions from members.
    Ms. Gambler's written statement is available at the 
Committee or on the Committee Repository at: http://
docs.house.gov/meetings/ju/ju01/20171026/106540/hhrg-115-ju01-
wstate-gamblerr-20171026.pdf
    Mr. Labrador. Thank you very much.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes.
    Mr. Henshaw, as you know, last year, the U.S. entered into 
an agreement with Australia to accept over 1,000 refugees that 
Australia has refused to resettle, many of whom are from 
countries of national security concern. When this committee 
inquired about the agreement, we were told that it was 
classified. Press reports have indicated the deal was little 
more than Australia agreeing to resettle a small number of 
individuals from the Northern Triangle countries.
    Don't you agree that the American people have a right to 
know the details of that agreement?
    Mr. Henshaw. Sir, it is our intention to make public as 
much as the agreement as we can. The report that you initially 
referred to was classified and remains classified. We have been 
unable to declassify it. But, nevertheless, we will continue 
to----
    Mr. Labrador. Why? Why is that?
    Mr. Henshaw. Sir, the original report was classified by the 
Australians, and we have an agreement with the Australians 
that, if they classify a report, it is classified under our 
system.
    Mr. Labrador. So will you commit to supporting 
declassification of the agreement? Can you find a way to 
declassify it? We are talking about an agreement that affects 
the lives of America people, not--it is not the Australian 
people. So how do we let our people know what is in that 
agreement and what we are doing?
    Mr. Henshaw. I will continue to work towards declassifying 
the report, sir. I believe that most of the information in the 
report is already in the public domain.
    Mr. Labrador. Yeah, but we need to know from the 
government, not what has been leaked to the press. I want 
testimony on what exactly we agreed to with the Australian--
will you commit to doing that?
    Mr. Henshaw. I will commit to continuing to work to 
declassify the information, sir.
    Mr. Labrador. Can you please explain the role of the RSCs 
in the refugee programs?
    Mr. Henshaw. Yes, sir. We use RSCs to enter the original 
data on refugees who we are considering for resettlement in the 
United States. We do some early interviewing to collect data, 
biographical data, and information from them so it can be later 
used by DHS and so that we can enter that into our security 
system so that security reviews can be carried out.
    Mr. Labrador. What types of fraud have occurred at the RSC 
level?
    Mr. Henshaw. I am not prepared to give full details. I just 
don't have it with me on fraud.
    Mr. Labrador. Didn't you know you were coming to testify 
about this program?
    Mr. Henshaw. Yes.
    Mr. Labrador. So why are you not prepared?
    Mr. Henshaw. I can give you some examples, if you would 
like, sir. We have had a couple cases where people have--we 
have had a couple cases, sir, where people have missed--have 
attempted to portray their information incorrectly to RSC 
members, but in all cases that I am aware of----
    Mr. Labrador. I would like to see a report of what kinds of 
frauds. I thought that was the purpose of this hearing. I am a 
little bit dumbfounded that we don't have that information. So 
I would like to know--that is what we are trying to figure 
out--what is happening with this program, and I would like that 
information.
    Mr. Cissna, can you please explain why the decision was 
made to concentrate on asylum cases as opposed to refugee cases 
this fiscal year?
    Mr. Cissna. Well, as I started to say earlier but then ran 
out of time----
    Mr. Labrador. Yes.
    Mr. Cissna. USCIS is facing a backlog of about 300,000 
asylum cases. And the way we look at it, the asylum work that 
we do is complementary to the refugee work. These are all 
vulnerable populations; these are people seeking relief under 
the same standard. And the backlog is untenable. We can't have 
that backlog persist because people are going years, 
potentially, waiting for a court date to have their benefits 
adjudicated. So we want to divert resources from refugee 
processing to the asylum backlog to reduce that backlog.
    Mr. Labrador. You are just trying to help with the 
backlog----
    Mr. Cissna. Yes.
    Mr. Labrador. On asylum. It is not something nefarious that 
you are trying to hurt people; you are actually trying to help 
people.
    Mr. Cissna. No, we want to help them.
    Mr. Labrador. All right. Thank you.
    The previous administration consistently told us that 
refugees underwent the most rigorous vetting of any other 
immigrants. But your testimony notes that several ways to 
enhance the process for screening and vetting refugees have now 
been identified. Apparently, that has been news to the previous 
administration. Can you explain what some of those holes in the 
process were and what changes have been made?
    Mr. Cissna. Well----
    Mr. Labrador. Do it quickly.
    Mr. Cissna. I wouldn't call them holes, necessarily. I 
would say that the processes that we have long had in place 
could have been improved and will be improved. And some of the 
things we are doing, we are enhancing and increasing the types 
of information we are collecting from people. We are improving 
our interview processes and the guidance to the people in the 
field to conduct interviews, to root out fraud, and determine 
credibility. And, finally, the types of checks we are doing on 
people are also being expanded and enhanced to ensure that we 
get the most possible value from those types of investigations.
    Mr. Labrador. Thank you very much.
    I now recognize the gentlelady from California, the ranking 
member of the subcommittee.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I can't help but note that, yesterday, we marked up a bill 
that would allow, you know, hundreds of thousands, maybe even 
millions of workers paid sub-minimum wage come into the U.S. 
with no vetting whatsoever. So, if I were a potential 
terrorist, I think I might look at that route instead of the 
extensive route that you are describing.
    Mr. Labrador. Well, thanks for letting them know how to do 
it.
    Ms. Lofgren. Moving right along. I would like to ask you, 
Mr. Lloyd, about policies relative to the rights of asylees in 
your custody. I know that we are all aware that so-called Jane 
Doe, a 17-year-old immigrant woman in ORR custody, was blocked 
from accessing an abortion and forced to continue a pregnancy 
against her will. She is a minor, but a court had decided that 
she had the maturity to make the decision on her own, and yet 
she continued to be blocked from this constitutional protected 
healthcare. She wasn't asking the government to pay for her 
care or to transport her to a doctor, just to get out of the 
facility so that she could access a constitutional right that 
she had to terminate her pregnancy. Obviously, as a 17-year-
old, she could not legally consent to the--I don't know whether 
she was violently raped or it was a product of statutory rape, 
she was finally released because the Court did intervene.
    So I would like to ask you about your general belief about 
the rights of women and girls who are in ORR's custody. Do you 
believe that women and girls in your custody have 
constitutional rights like other people who are in America? Or 
do you think that constitutional rights, for example, to due 
process and privacy, depend on immigration status?
    Mr. Lloyd. I think, and you are referring to the 
unaccompanied alien children program, where we provide shelters 
in a number of locations throughout the country. I think 
anybody who comes into the United States comes with the 
potential to become a full U.S. citizen with full rights to all 
the freedoms we enjoy, including the freedom to move freely and 
the right to bear arms and to vote and others. That is always 
subject to a process. Whether they come through as a UAC or 
they come through as some other means, it is a process where, 
as the person moves through the process, then they gain 
additional rights.
    Ms. Lofgren. Well, let me interrupt you because the due 
process clause applies to everybody who is here. I believe. I 
mean, that is what I learned in law school. That is what the 
case law seems to say. Do you agree with that or not?
    Mr. Lloyd. The due process clause does, yes.
    Ms. Lofgren. Let me ask you in terms of moving forward 
prospectively. The Washington Post reports--and you know, we 
don't know if this is true or not, which is why I am asking 
you--suggested that you have personally intervened to try and 
persuade minors not to have abortions.
    I would like to know, did you have direct contact with the 
young woman in this case that was in the paper? Do you have 
direct contact with other pregnant girls in the care of ORR? 
And do you have any medical training?
    Mr. Lloyd. Forgive me, but, some of the answers to the 
questions that you are asking are--my ability to answer them 
fully is limited by a number of factors, including the court 
orders and also our duty the protect the individual.
    Ms. Lofgren. I am not asking for a name. Have you ever 
contacted any anonymous young girl in your care trying to talk 
her out of having an abortion?
    Mr. Lloyd. As the Director, I run the UAC program, the 
repatriation program, and the Refugee Resettlement Program, and 
I am out in the field in many of our locations and I meet with, 
dozens, and even perhaps hundreds of the people who we serve. 
Among them, I am certain that some of them were pregnant at the 
time.
    Ms. Lofgren. I am disturbed that you won't answer the 
question.
    And my time has expired, Mr. Chairman.
    Mr. Labrador. The Chair will now recognize the gentleman 
from Iowa for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony.
    And just listening to the gentlelady from California's 
dialogue here, and I would say, first, that what has been 
created by that decision of the unelected judge is an 
unconditional right to an abortion to a minor who can sneak 
into the United States and is still subject to the adjudication 
of deportation.
    She had a full right--a full ability, I should say, rather 
than a right--to go back to her home country willingly and 
subject herself to the laws of her home county.
    And so I think this is a terrible precedent that has been 
set by this judge, and I hope that this full Judiciary 
Committee one day soon addresses the rogue judges that we have 
in this country, and this includes Judge Watson out in Hawaii 
and the judge in Washington, that seem to be the venue shopping 
people that decide that they are going to challenge the 
statutes of the United States duly passed by the United States 
Congress and signed into law by the President of the United 
States, and for them to turn that completely upside-down.
    And so I would like to turn first to Mr. Cissna with regard 
to that. And there has been discussion about the executive 
orders. And I would expand it to the challenges to the 
executive orders that have taken place in the courts, and I 
read the statute, and I don't have them in front of me, but it 
is very clear. Congress has granted the President the authority 
to determine who comes and who goes from the United States of 
America with the security interest of America in mind. And it 
doesn't say that a judge anywhere can look over his shoulder 
and determine that his judgment is flawed and their judgment is 
superior.
    So I would ask if you have any opinions upon that statute 
after I have expressed mine, Mr. Cissna.
    Mr. Cissna. Well, with respect to the refugee statute, 
section 207 of the Immigration Act, it is pretty clear that the 
authority to let refugees in is totally discretionary. So the 
authorities that we are now using to restart the program after 
the suspension was lifted comply with that. And the types of 
checks we are doing, all those things that we are doing that we 
talked about earlier, are in full compliance with that.
    Mr. King. And you discussed enhanced biometric collection. 
Could you expand on that a little for us, please?
    Mr. Cissna. In answer to that question, as with many other 
questions along those lines, I probably wouldn't be able to get 
into big detail because of law enforcement sensitivities.
    But I can say that the types of--the classes of people from 
whom biometrics will be taken, it is intended, shall be 
expanded in certain cases. So more people--we will get 
biometrics from more people. And the types of databases against 
which there are checks will also be expanded----
    Mr. King. Are we talking fingerprints?
    Mr. Cissna. Primarily, yes.
    Mr. King. Are we doing digital photographs, facial 
recognition?
    Mr. Cissna. We have always done that. We have always taken 
photographs.
    Mr. King. That would be pretty much the sum total of 
biometrics we are discussing when----
    Mr. Cissna. I think in general for now. But that doesn't 
preclude other biometrics----
    Mr. King. DNA I hope one day. It is cheap to get and cheap 
to keep. So that is my recommendation. Thank you.
    I would like to turn to Ms. Gambler. In your report, some 
questions came to mind to me on the U.N. High Commissioner on 
Refugees and cooperation with them that is referenced in your 
report. Can you tell me, does the U.N. High Commissioner on 
Refugees, do they do background checks on any of the lists that 
they maintain and pass over to us for potential refugees?
    Ms. Gambler. We can follow up and see what specific 
information we have on that, Congressman King, and get back to 
you. I do know there are, under the framework of cooperation 
that exists between the Department of State and UNHCR, I know 
that there are some feedback loops back and forth on that. We 
would be happy to followup and get any additional information.
    Mr. King. And I would appreciate if you could do that, but 
it would be--my understanding would be that, at this point, you 
are not aware of what background checks might be done, if any, 
by UNHCR.
    Ms. Gambler. We will follow up with you on that. The other 
thing I would say, though, is that the U.S. Refugee Admissions 
Program is designed to be a multistep process. And so, once 
referrals are made from UNHCR to the Department of State, that 
is when the Federal Government adjudication and security check 
process begins.
    Mr. King. But as far as we know--and I want to say as far 
as I know--the information that is referred to us from UNHCR 
doesn't really have a background check. It is simply a file 
that gets passed on to us and takes time for them to move 
through the file, maybe as long as 2 years.
    So, in the background checks that we do have that we are 
relying upon for this ubervetting process that the President 
has described, if there is no legal existence of that 
individual in their home country or none that can be uncovered 
by the record, then if it comes up empty, we are just stamping 
them ``USA-approved'' and moving them into the country. Would 
that be a fair representation?
    Ms. Gambler. As we noted in our report, Congressman King, 
government officials have stated that the security checks are 
reliant on the information that the U.S. Government has.
    Mr. King. And if there is none available, then we are 
relying upon empty--Mr. Chairman, I would ask unanimous consent 
for one more short question, please.
    Mr. Labrador. Without objection.
    Mr. King. Thank you, Mr. Chairman.
    I think I have forgotten the question. But it was that--
with the vetting process that we have and the lack of 
biometrics that we have--you know, I am just going to suspend 
that because I don't think it is well-enough thought out. And I 
would yield back and thank you for attention, though, on the--
--
    Mr. Labrador. Thank you, Mr. Chairman.
    I yield the time to the ranking member of this 
subcommittee--of the committee, entire committee.
    Mr. Conyers. Thank you, Mr. Chairman.
    And I appreciate the discussion that has been generated. 
Let me start off by observing that, since the Trump 
administration has come into being, briefing requests submitted 
by Democratic Members' staff have been repeatedly denied, 
ignored, or delayed.
    Do each of you promise to respect and satisfy the briefing 
and other requests staffs make from both the Republican and 
Democratic Members alike?
    Mr. Cissna, are you okay with that?
    Mr. Cissna. I am okay with providing any technical 
assistance or briefings you want from my agency.
    Mr. Conyers. Okay. Thank you.
    Mr. Lloyd, are you okay with that?
    Mr. Lloyd. Yes, certainly.
    Mr. Conyers. Thank you. Mr. Henshaw.
    Mr. Henshaw. Yes, sir.
    Mr. Conyers. Okay. Fine. What I wanted to observe is that 
my district has benefited greatly from the economic 
contributions from the refugee community. Refugees from around 
the world live and reside in and own businesses in the Detroit 
area that I represent, and I welcome these hard-working 
refugees and think that my opinion--and think that my community 
is better as a result.
    And economists have also found that refugees have higher 
entrepreneurship, make significant contributions to the 
economy, and, on average, pay more than $21,000 in taxes than 
they receive in benefits. And I have got a couple of studies 
that back it up. I would like consent to include them in the 
record, Mr. Chairman, the New American Economy, ``Struggle to 
Resilience,'' as well as the ``Economic and Social Outcomes of 
Refugees in the United States.'' And I ask unanimous consent to 
enter them into the record.
    Mr. Labrador. Without objection, they will be entered into 
the record.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20171026/106540/HHRG-115-JU01-20171026-SD003.pdf
    Mr. Conyers. Thank you very much.
    Is there general agreement among all of our witnesses that 
there have been great benefits of these refugees that make 
communities like mine better as a result? Is there general 
agreement with that from all of you here this morning?
    Mr. Cissna. I don't disagree that many refugees do make 
enormous contributions to our country, yes.
    Mr. Conyers. Sure.
    Mr. Henshaw. Yes, sir, absolutely.
    Mr. Conyers. Uh-huh.
    Mr. Lloyd. I concur.
    Ms. Gambler. Yes.
    Mr. Conyers. All right.
    Now, let me get to the question or observation raised by 
Mr. Lloyd.
    How do you think refugees are doing on the question of 
assimilating? Do you believe refugees are currently 
assimilating or not assimilating?
    Mr. Lloyd. In any question like that, I think it is a case-
by-case basis, but that is one of the goals of our program. 
Once they have arrived in the U.S., we provide job placement 
services, and English language courses which are going to help.
    Mr. Conyers. I know it is going to be on a case-by-case 
basis, but, I mean, in general. Do you think they are--that 
currently assimilation has come along okay or not?
    Mr. Lloyd. Generally, from what I have been able to see, I 
think so, yes.
    Mr. Conyers. Uh-huh. Any other views that anyone wants to 
recommend on this question that I have asked? Is assimilation a 
problem, or is it working okay?
    Mr. Cissna. Well----
    Mr. Conyers. Can I get the response?
    Mr. Labrador. You can respond.
    Mr. Cissna. At USCIS, we do look at assimilation issues 
with respect to our citizenship and grants programs. And with 
regard to refugees, that is something I think we want to look 
at more carefully in this fiscal year. So we want to look at it 
as well.
    Mr. Conyers. Anybody else want to chime in on this? My time 
has expired, but we can answer the question.
    Mr. Henshaw. I would just add, sir, that we concentrate on 
self-sufficiency, and we have good results in many refugees 
becoming self-sufficient and contributing to society in 
America.
    Mr. Conyers. Good.
    Ms. Lofgren. Mr. Chairman?
    Mr. Labrador. Thank you. The gentleman's time has expired.
    Ms. Lofgren. May I ask for unanimous consent to put in the 
record a letter from 24 national and State-based religious 
groups opposing the ORR obstructive policy on abortion?
    Mr. Labrador. Without objection.
    This material is available at the Committee or on the 
Committee repository at: https://docs.house.gov/meetings/JU/
JU01/20171026/106540/HHRG-115-JU01-20171026-SD002.pdf
    Mr. Labrador. And I now recognize the gentleman from 
Louisiana for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you all for being here.
    Director Cissna, prior to now, what information was not 
being shared between State and DHS that is now going to be 
shared to enhance the safety of the refugee program?
    Mr. Cissna. I think that would squarely fall within the 
universe of kind of law enforcement sensitivities that I don't 
feel comfortable discussing in an open forum.
    Mr. Johnson. Fair enough. Can you explain to the committee 
how the Department of Homeland Security modified its training 
of DHS refugees officers to account for serious and potential 
threats of bad actors who try to abuse the refugee program?
    Mr. Cissna. Historically, the training of refugee officers 
has always been very robust. They have weeks and weeks of 
training that all adjudicators have, but then they have an 
additional 5 or 6 weeks on top of that. And then they have 
country-specific training that focuses on the types of fraud 
and other country conditions.
    But in the wake of the working group that implemented the 
executive order, we are going to further increase and improve 
training so that the officers are able to even better assess 
credibility, which is the key element in interviewing the 
people, and determining whether the person is inadmissible 
under the law. So sometimes they have criminal offenses or 
other things that make them inadmissible, and we are trying to 
train our adjudicators to make even better assessments of that.
    Mr. Johnson. Speaking of the credibility determination, do 
you think now would be a good time for us to review our asylum 
standards, meaning that would it be wise for Congress to 
tighten the standards for credible fear determinations, for 
example, to ensure our system is not abused, especially in 
light of this backlog of 300,000 cases?
    Mr. Cissna. I do. I think that--and this is actually one of 
the immigration priorities that the administration advanced a 
week or--2 weeks ago or so. One of the many things that we 
proffered was that the Congress examine that exact issue.
    I think the question would be whether the credible fear 
standard is actually clear enough to be implemented properly, 
and I don't think it is. I think it could be clarified so that 
those assessments are made better and the people that don't 
meet that standard get weeded out.
    Mr. Johnson. I am glad to hear you say that. We have been 
working on legislation to help with that.
    Ms. Gambler, can you speak to the fraud that has occurred 
at the resettlement support centers. I think Mr. Henshaw didn't 
quite answer it completely. What is your thought on that?
    Ms. Gambler. Yes. As part of our audit work, we did 
identify that, while infrequent, there were some cases of fraud 
that occurred at the RSCs. So we give some examples in our 
report. In one case, RSC staff were soliciting bribes on 
promise of being able to help expedite applications. There was 
another case in which interpreters were seeking bribes as well. 
To, I think, State's credit and the RSC's credit, in response 
to those instances of fraud, they did take action to respond 
and strengthen their processes going forward. But there have 
been some cases of fraud identified as it relates to RSCs.
    Mr. Johnson. Thank you for that.
    Mr. Henshaw, back to you. As you know, the U.S. 
consistently admits per year vastly more UNHCR-referred third-
country resettled refugees than any other county in the world, 
and you mentioned that. What diplomatic pressure or other 
incentivizing measures are being used to push these other 
countries to admit more of those refugees?
    Mr. Henshaw. Yes, sir. We participate in worldwide meetings 
of resettlement countries and push other countries to take 
additional refugees. We use that in diplomatic meetings, in 
humanitarian meetings, and other meetings around the world to 
urge other countries. We have also pushed countries that 
haven't been in the resettlement business before to get into 
that business. And one of the alternatives that we have pushed 
for countries that aren't regular resettlement countries is to 
look for alternative methods for people to enter their 
countries on different kinds of working visas or such.
    Mr. Johnson. Well, as you also know, refugees are provided 
loans to cover the cost of travel to the U.S., and funding for 
the loans is provided by your agency. So I am curious to know 
about the loan repayment rate and if you have steps that are 
being taken to ensure prompt repayment of those loans?
    Mr. Henshaw. Repayment rate is very high. It differs among 
populations, but it is generally well over 75 percent and, with 
many populations, significantly over that. And we continue to 
look for ways to improve payment of those loans--repayment of 
those loans.
    Mr. Johnson. I have got 15 seconds, but what are the 
repercussions to a refugee who doesn't pay back a loan? What 
about that 25 percent?
    Mr. Henshaw. I believe it affects their credit rating, but 
I would have to get back to you on the other details on how it 
affects them.
    Mr. Johnson. Would you give us that information?
    Mr. Henshaw. Yes, I can do that.
    Mr. Johnson. Thank you. I yield back.
    Mr. Labrador. Thank you.
    And I yield to the gentlelady from Washington.
    Ms. Jayapal. Thank you, Mr. Chairman.
    Let me pick up on the questions of our ranking member of 
the subcommittee, Ms. Lofgren.
    Mr. Lloyd, do you believe that a woman's constitutional 
right to abortion depends on her immigration status?
    Mr. Lloyd. I think that any entrant into the United 
States----
    Ms. Jayapal. It is a yes-or-no question, Mr. Lloyd. Do you 
believe that a women's constitutional right to abortion depends 
on her immigration status, yes or no?
    Mr. Lloyd. A number of rights----
    Ms. Jayapal. That is not a yes-or-no question--that is not 
a yes-or-no answer, Mr. Lloyd.
    Mr. Lloyd. My answer is that any number of rights depend on 
where they stand in terms of our immigration system.
    Ms. Jayapal. I do not understand that answer. Is that a yes 
or a no?
    I will take that as a no. So do you believe that immigrants 
have constitutional rights?
    Mr. Lloyd. Once again, if somebody wants to come into the 
United States and----
    Ms. Jayapal. I will take that as a no.
    Mr. Lloyd, do you have medical training of any kind?
    Mr. Lloyd. If I need advice regarding any medical situation 
regarding any of the populations I serve, I consult the medical 
team----
    Ms. Jayapal. So the answer is, no, you don't have medical 
training of any kind.
    Mr. Lloyd. No, I don't.
    Ms. Jayapal. Are you trained to provide counseling services 
to young people, Mr. Lloyd?
    Mr. Lloyd. If counseling services are called for, then I 
rely on the team of counseling professionals to advise me in my 
role.
    Ms. Jayapal. So, Mr. Lloyd, what expertise makes you 
qualified in this Jane Doe case to override the determination 
of a Texas State court that Jane Doe is mature and competent 
enough to make her own decisions?
    Mr. Lloyd. I am not going to comment on any individual 
case. In any case that comes across my desk, we are going to 
look at the totality of the circumstances that may affect their 
case, and that may include legal considerations, and it may 
include policy considerations, medical needs, social 
considerations and welfare considerations. We have a team of 
experts and staff who are well equipped to advise me on any 
number of those things. In terms of what outcomes we are going 
to come to or what decisions we are going to make, it is going 
to come from a totality of that advice and the facts on the 
ground.
    Ms. Jayapal. Mr. Lloyd, is anybody able to review or 
override your decision, or are you the ultimate decision maker 
with regards to a woman's ability to exercise her 
constitutional right to abortion?
    Mr. Lloyd. The Office of Refugee Resettlement is situated 
within the Department of Health and Human Services, 
Administration for Children and Families. I answer to the 
Assistant Secretary for Children and Families and to the 
Secretary of HHS.
    Ms. Jayapal. Mr. Lloyd, is it your intent to block 
unaccompanied minors from accessing abortion care, or will you 
instruct providers to deny minors other types of reproductive 
healthcare, like contraception or information on contraceptive 
methods? How far is your jurisdiction over this issue going to 
extend?
    Mr. Lloyd. Any time or any circumstance is going to depend 
on the totality of facts that any individual case brings before 
us. It is always going to be a case-by-case determination.
    Ms. Jayapal. It is extremely troubling to me, Mr. Lloyd, 
what is happening. I think you are far overreaching over your 
expertise or your jurisdiction.
    Mr. Henshaw, from the beginning, America has been a refuge 
for the persecuted. And in keeping with our past--with our 
values, past Republican and Democratic Presidents alike have 
championed refugees and regarded the refugee program as core to 
the Nation's identity. And, in fact, to 20 national security 
leaders, including Henry Kissinger, Michael Chertoff, Madeleine 
Albright, wrote in a 2015 letter, and I am quoting, that: 
``Resettlement initiatives help advance U.S. national security 
interests by supporting the stability of our allies and 
partners that are struggling to host large numbers of 
refugees.''
    And yet this administration has repeatedly, and contrary to 
evidence, characterized refugees as fraud, security threats, 
and resource strains.
    To what extent and why do you think that this 
administration's view of refugees is so dramatically different 
from the longstanding bipartisan tradition and fundamental 
American values?
    Mr. Henshaw. Security is our utmost concern with any 
refugee program. And we have over the years often reevaluated 
our program to make sure that the best security standards are 
met, and that is what we are doing now.
    I believe that the current plan to bring in up to 45,000 
refugees this year is well within our past history of refugee 
numbers and signifies that we are still the leader in refugee 
resettlement in the United States--in the world, sorry.
    Ms. Jayapal. Mr. Chairman, I ask unanimous consent for one 
more short question.
    Mr. Labrador. Without objection.
    Ms. Jayapal. Thank you so much.
    Mr. Henshaw, the White House has recently released 
statement of immigration principles cited a misleading study 
claiming to show that United States can resettle 12 refugees in 
safe zones near their home countries for the cost of resettling 
1 refugee domestically. Are you aware of who performed that 
study?
    Mr. Henshaw. No, I am not. I would just simply say that it 
is always our number one option to resettle people back in--
voluntarily back in the country from which they fled.
    Ms. Jayapal. Let me just say, and I will yield back my 
time, that the source was the Center for Immigration Studies, 
an organization that the Southern Poverty Law Center has 
designated as a hate group and found that it disseminated white 
nationalist content on over 2,000 occasions. I am deeply 
disturbed that the administration would be using that as a 
source of anything in an official report.
    I yield back, Mr. Chairman. I thank you for the additional 
time.
    Mr. Labrador. The chair will yield time to the gentlelady 
from Texas.
    Ms. Jackson Lee. I thank the gentleman.
    And I really do--as I look, these are public servants, and 
I thank you for your service. I would argue that the service 
that each of your agencies are supposed to give really falls in 
the category of mercy and sympathy and empathy for conditions 
that refugees around the world are facing.
    I am not sure whether that is possible, having the kind of 
statements that are coming from the administration, and I, 
frankly, believe the American people should realize that, when 
people servants appear before us, they are, unfortunately, the 
spokesperson of a cruel and ugly policy, as evidenced by the 
administration.
    So, having sat on the Immigration Subcommittee for many, 
many years, I can probably, with great comfort, say that this 
is probably the worst time in American history as it relates to 
the rights of immigrants.
    With that said, I would like to begin my line of 
questioning on a general statement on Mr. Henshaw and Mr. 
Lloyd. How do you treat Muslim refugees?
    Mr. Henshaw.
    Mr. Henshaw. We don't treat refugees any differently in any 
way based on their religion.
    Ms. Jackson Lee. And how is that possible when the 
administration has fought consistently for a Muslim ban?
    Mr. Henshaw. There is no Muslim ban. We are simply 
reevaluating our security system country by country.
    Ms. Jackson Lee. There is a Muslim ban proposed by this 
administration, as evidenced by the stance that the Attorney 
General has been taking in the courts, although they have been 
defeated.
    So what you are saying to me is that you do not decipher 
and/or reject Muslim refugees that may be in refugee camps in 
Jordan and on the border of Syria?
    Mr. Henshaw. Never, ever.
    Ms. Jackson Lee. All right. Mr. Lloyd.
    Mr. Lloyd. Once they enter into our care, all 
determinations about placement have already been made. This is 
the Office of Refugee Resettlement where we administer 
benefits. We treat Muslim refugees the same as we treat all 
other refugees.
    Ms. Jackson Lee. Will you submit to this committee your 
statements in dealing with refugees who have come? I know the 
process. The American people don't know the process. That is, 
of course, that refugees coming out of areas are in a camp. I 
think you work with United Nations. That is the process. It is 
a long period of vetting, and then these individuals come to 
the United States by way of your choice of them out of those 
who are requiring or requesting the opportunity to come to the 
United States. Is that not correct?
    Mr. Lloyd. The initial determination and selection is made 
by PRM in consultation with DHS.
    Ms. Jackson Lee. Right. So provide me and this committee 
with that whole process, and that includes those individuals 
that may be coming from the areas of the Muslim ban, because 
they do exist. So I would appreciate if you would do so. 
Otherwise, the myth of taking in terrorists will continue to 
abound in this particular administration.
    I would like to pursue also the line of questioning dealing 
with your treatment of refugees, having just visited the border 
and seeing some of the detention centers. Although I appreciate 
the service, again, of the Federal employees, it is not a 
pleasant sight.
    So, in particular, Mr. Lloyd, with Ms. Jane Doe, again, did 
you have direct contact with Ms. Jane Doe or those advocating 
on her behalf?
    Mr. Lloyd. I cannot comment on individual cases.
    Ms. Jackson Lee. Would you--I am not sure why you would not 
indicate whether or not--did you have contact with the lawyers? 
Did the agency have contact directly with the lawyers?
    Mr. Lloyd. In any case where there are any lawyers 
involved, we would be in contact with the lawyers, yes.
    Ms. Jackson Lee. Do you have a set policy that you are 
pushing by way of the administration that opposes any young 
women who are falling under a particular statistic that says 
that 60 percent of those who are trying to flee oppression and 
persecution coming from the southern border are generally raped 
by their--by those who are trafficking them and, therefore, 
might be in need of medical help? Are you familiar with that 
statistic?
    Mr. Lloyd. I am not familiar with that specific statistic, 
but----
    Ms. Jackson Lee. Do you ever any position on providing any 
sort of humane response to an individual that may have been 
raped and is pregnant, and that falls upon the laws of the 
United States, which would allow an abortion?
    Mr. Lloyd. We work in the best interest of all the UACs who 
come into our care and in the confines of our statutory 
requirements.
    Ms. Jackson Lee. So then they would be covered by the 
general laws about the ability to achieve an abortion based 
upon being raped?
    Mr. Lloyd. That would fall under the TVPRA, which we have 
implemented with interim----
    Ms. Jackson Lee. Is that a yes?
    Mr. Lloyd. I am sorry?
    Ms. Jackson Lee. They would have that right because of the 
laws that allow women to secure an abortion because they have 
been raped. Is that a yes?
    Mr. Lloyd. With regard to the sexual----
    Ms. Jackson Lee. I would like an additional minute for the 
witness to answer the question.
    Mr. Labrador. I will object. You have gone over a minute 
already, so----
    Ms. Jackson Lee. Would you finish the question, sir?
    Mr. Labrador. You can answer the question.
    Mr. Lloyd. With regard to sexual assault, we follow the 
guidelines of the Trafficking Victims Protection Act and have 
implemented that into our policies.
    Ms. Jackson Lee. In Jane Doe's case, you did not, however--
--
    Mr. Labrador. The gentlelady's time has expired. I gave you 
an additional minute, so thank you.
    Ms. Jackson Lee. I appreciate it, Mr. Chairman, but this is 
a serious issue. The treatment of refugees under this 
administration has diminished. It has frankly deteriorated.
    And I want to apologize to those who are seeking refuge in 
this country under this administration.
    Mr. Labrador. It is a serious issue. And that is why we are 
trying to reduce the number of illegal people coming to the 
United States because many of them do get raped trying to cross 
a border, and that is what we are trying to stop.
    Ms. Jackson Lee. I appreciate that, Mr. Chairman. We should 
at least treat them with decency when they come.
    Mr. Labrador. This concludes today's hearing.
    Ms. Jackson Lee. I yield back.
    Mr. Labrador. Thanks to all of our witnesses for attending.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    This hearing is adjourned.
    [Whereupon, at 10:30 a.m., the subcommittee was adjourned.]

                                  [all]



</pre></body></html>
